No.

3ht tfje Supreme Court of tfje Hmteb States?
ALIREZA VAZIRABADI,
PETITIONER

v.
DENVER PUBLIC SCHOOLS
On Petition for Writ of~Certiorari toThe United
States Court of Appeals for the Tenth Circuit
Proof of Service Declaration, Under 28 U.S.C. § 1746
Pursuant to U.S. Supreme Court April 15, 2020 Order, due to Covid-19, for use of
electronic service if feasible, upon Respondent’s agreement to accept Petitioner’s writ
of certiorari in electronic PDF format, I, Alireza Vazirabadi, do hereby declare that
on January 4, 2021, as required by U.S. Supreme Court modified Rule 29, have
served Respondents’ attorney electronically, by emailing a PDF copy of the
PETITION FOR A WRIT OF CERTIORARI to Respondents’ attorney below:
SEMPLE, FARRINGTON & EVERALL, P.C.
Jonathan P. Fero
jfero@semplelaw.com
1120 Lincoln Street, Suite 1308
Denver, CO 80203
Phone: 303.595.0941
I, Alireza Vazirabadi, pursuant to 28 U.S.C. § 1746, declare under penalty of
perjury that the foregoing is true and correct.
Executed on January 4, 2021
By:
Alireza Vazirabadi
843 Vaughn Street
Aurora, CO 80011
avazirabadi@yahoo.com
720-218-4769

